<html>
<title> - SMALL BUSINESSES AND THEIR LIMITATIONS WITHOUT RELIABLE ACCESS TO RURAL BROADBAND</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


  FIELD HEARING: SCANDIA, MN: SMALL BUSINESSES AND THEIR LIMITATIONS 
               WITHOUT RELIABLE ACCESS TO RURAL BROADBAND

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON CONTRACTING AND INFRASTRUCTURE

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                              MAY 30, 2019

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                               

            Small Business Committee Document Number 116-024
             Available via the GPO Website: www.govinfo.gov
             
             
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-465                      WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="56263916352325223e333a267835393b78">[email&#160;protected]</a>                      
             
             
                         
             
             
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                        TRENT KELLY, Mississippi
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania

                Adam Minehardt, Majority Staff Director
     Melissa Jung, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                            
                            
                            
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Jared Golden................................................     1
Hon. Pete Stauber................................................     3

                               WITNESSES

Mr. Adam Artz, Realtor, Realty Executives, Blaine, MN............     6
Mr. Marc Johnson, Director, East Central Minnesota Educational 
  Cable Cooperative, Braham, MN..................................     8
Mr. Greg Carlson, Executive Director of Partnered & Affiliated 
  Boards, Cambridge Presbyterian Homes, Roseville, MM............    11
Mr. Matt Crescenzo, Owner, Bulltear Industries, Inc., Scandia, MN    13

                                APPENDIX

Prepared Statements:
    Mr. Adam Artz, Realtor, Realty Executives, Blaine, MN........    27
    Mr. Marc Johnson, Director, East Central Minnesota 
      Educational Cable Cooperative, Braham, MN..................    28
    Mr. Greg Carlson, Executive Director of Partnered & 
      Affiliated Boards, Cambridge Presbyterian Homes, Roseville, 
      MN.........................................................    33
    Mr. Matt Crescenzo, Owner, Bulltear Industries, Inc., 
      Scandia, MN................................................    37
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    None.

 
SMALL BUSINESSES AND THEIR LIMITATIONS WITHOUT RELIABLE ACCESS TO RURAL 
                               BROADBAND

                              ----------                              


                         THURSDAY, MAY 30, 2019

                  House of Representatives,
               Committee on Small Business,
    Subcommittee on Contracting and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., at 
Bulltear Industries, 24543 Olinda Trail N., Scandia, MN, Hon. 
Jared Golden presiding.
    Present: Representatives Golden, Craig, Stauber, and 
Hagedorn.
    Chairman GOLDEN. The Committee will come to order, and I 
want to thank everyone for joining us this morning. I 
especially want to thank the witnesses for being here today.
    I would also like to thank Mr. Stauber for welcoming me to 
Minnesota.
    For those of you that don't know, I am Congressman Jared 
Golden from the State of Maine. I represent Maine's 2nd 
Congressional District, and I am the Chair of this Subcommittee 
of the Small Business Committee. Congressman Stauber is the 
Ranking Member.
    In our short time in Congress together, he and I have 
worked together to get things done for small businesses. We are 
working on a bill to make sure they have the contracting 
opportunities that Congress intended, and I look forward to 
working with him on this important topic which impacts Sandia 
and towns in my district back home in Maine.
    Access to a robust broadband connection is critical for 
small businesses and the communities they serve. However, 25 
million Americans lack access to high-speed Internet. Many of 
these Americans reside in rural parts of the country where it 
is more difficult and expensive to build out broadband 
networks. In fact, 58 percent of rural Americans believe that 
lack of access to high-speed Internet is a problem in their 
hometown. In my home district, parts of which are very rural--
in fact, it is the second most rural congressional district in 
the United States--37,000 people do not have access to a wired 
high-speed Internet connection, and 9,000 do not have a wired 
connection at all.
    This lack of access is particularly damaging to small 
businesses attempting to enter the market and compete with 
businesses in more urban areas. Nationwide, 39 percent of homes 
in rural areas lack access compared to just 4 percent of urban 
households. Without access to reliable Internet, small firms in 
rural areas miss opportunities to connect with new customers 
and cannot take advantage of cost-saving tools like digital 
payment processing and online distribution services. Children 
in rural areas also need access to high-speed broadband to 
utilize educational tools so we can usher in the next 
generation of tech-savvy entrepreneurs.
    Rural communities need more resources to close the digital 
divide, which is why I wrote a letter to the Chairman of the 
FCC calling for policies that foster innovative technology in 
places where fiber cannot reach. In Maine, about 5.5 percent of 
households are connected to a fiber-optic network. A mixed 
technology model and access to unlicensed spectrum is needed to 
establish connections in extremely rural parts of our country. 
Because we know that economic growth--the kind small businesses 
provide to communities--will help to revitalize rural areas and 
make them attractive places to live, we need to invest in 
digital infrastructure, which is why I am happy to raise this 
issue to ensure that rural broadband is a top priority in any 
major infrastructure package done by Congress.
    I am very proud to serve on the House Rural Broadband 
Taskforce to advance a transformative agenda to ensure that all 
Americans have access to high-speed broadband by the year 2025. 
That is the goal. This work will include ensuring Federal 
funding goes to the places in our country like Minnesota and 
Maine, places that need it most, and identifying innovative 
approaches to accomplishing affordable universal broadband 
coverage.
    And just a quick note, going off-script on that, I will 
tell you that in Maine, where I come from, just in the last 
couple of weeks traveling around, you probably heard Congress 
talk about things like USDA grants and other things that are 
available to rural areas to help establish broadband service. 
The problem is sometimes the rules that get set up actually 
exclude the very people it is meant to help. So I have 
municipalities come to me all the time and say we would love to 
get a USDA grant to lay down some fiber and establish broadband 
for our community, but the FCC says we are not eligible for the 
grant because the ISP claims that they are already providing 
the service. But if you live there, if you go there, that is 
just not really the case. So it is a big issue and one that 
Congressman Stauber and I have worked on together.
    Before I shut myself down here and turn it over to the 
Ranking Member, I just want to say a word about him, and I will 
begin by thanking you all here who live in his district for 
sending him down to Washington. It is certainly sometimes a 
rather hostile environment. I think you are probably all in 
agreement that it feels like our politics could be a lot better 
and that it is a divisive time in our country, and I have found 
working with Congressman Stauber to be just a gift, and I feel 
fortunate to be chairing a committee with a Ranking Member like 
he is, someone who is thoughtful, civil, and he is there 
focused on actually--well, he is mission oriented. The Marine 
in me I think would put it that way. He wants to get things 
done and not play games. It makes the work that we do on the 
Committee that much easier. I am looking forward to another 
year-and-a-half working with him.
    Thank you again for the invitation. I think this is a great 
field hearing, a great topic, one that is critically important 
to your community.
    And with that, I will turn the microphone over to the 
Ranking Member.
    Mr. STAUBER. Thank you very much, Chair Golden. I really do 
appreciate you coming to our great state of Minnesota to chair 
this Committee hearing today.
    I want to thank all of you for coming out to this hearing. 
For us, this is bringing Washington, D.C. to the local level. 
That is exactly where it is supposed to be, and I am really 
appreciative of you all showing up here and really talking 
about this important issue here, not only in rural Minnesota 
but rural America.
    So these hearings, this is an official record of Congress. 
It will be put forth, and we want to hear what we hear back and 
try to legislate for reforms and monies that can help 
distribute broadband, deploy broadband throughout the country.
    So, good morning, and thank all of you for being with us 
today in beautiful Scandia, Minnesota. I have a lot of people 
to thank. First and foremost, I want to thank our witnesses. 
Each of you have sacrificed an incredible amount of your time 
to be with us today, and I can't acknowledge you enough for 
sharing your perspectives with us.
    I would like to especially recognize Matt, the owner of 
Bulltear Industries here, as well as your family and your co-
workers who are hosting us today.
    I would also like to recognize the efforts of Melissa Young 
and Lauren Fink from the staff of the Chairwoman of the Full 
Small Business Committee, Ms. Velazquez of New York, for being 
here with us today to make sure things go smoothly.
    Finally, I would like to thank all state and local elected 
officials for coming out today and for the work you do here in 
Minnesota in your respective cities, townships, and counties.
    I would also like to thank Congresswoman Angie Craig for 
being here today, taking some time. I know both you and 
Congressman Hagedorn are very busy today, so coming up and 
spending some time with us--and we work on the Small Business 
Committee together. So, Congresswoman Craig, thanks for your 
time today.
    Congressman Hagedorn, I also want to thank you for being 
here today. We spend some time, quite a bit of time, as you 
know, on the Small Business Committee working on behalf of 
Minnesota, in particular rural Minnesotans. So thank you both 
for being here.
    And before I begin, I want to also thank and recognize my 
colleague from Maine, Chairman Golden. I sincerely thank you 
for being here and taking the trip to Minnesota to hold this 
hearing.
    Congressman Golden grew up in Leeds, Maine. It is a small 
rural town in Maine's 2nd Congressional District, and after the 
September 11th terrorist attacks on our nation, he enlisted in 
the United States Marine Corps and served four years in the 
military as an infantryman, deploying to Afghanistan in 2004 
and Iraq in 2005 and 2006. Like me, he is in his first term in 
the House of Representatives, and he represents a very large 
part of a very rural state. And yet, again like me, he has a 
passion for working on the solutions to the problems that 
plague our nation's job creators, our small businesses.
    So don't let everything you see on TV and read in the 
papers fool you about how broken Washington is. Some things 
actually work in D.C. At the Small Business Committee, we work 
together in a very bipartisan way to get things done. So I want 
to express my gratitude to Jared for being here with us today 
and thank him for his commitment to working across the aisle 
for America's small businesses and men and women.
    In 2018, 95 percent of Americans owned a cellphone, and 89 
percent of Americans used the Internet. It is clear, technology 
has influenced nearly every aspect of society, from 
manufacturing to education, access to technology. Small 
business specifically requires access to reliable and 
affordable technology to compete in the market. According to a 
recent study, digitally advanced small businesses were shown to 
be three times more likely to create jobs and experience 
revenue growth, four times higher than small businesses who 
didn't employ the technology. Yet despite such outstanding 
terms, many small businesses do not take full advantage of the 
technologies available to them. Often this is due to the owners 
not realizing the benefits of such tools, or they simply lack 
access to reliable technology resources as a result of cost or 
location.
    Today, more than 24 million Americans lack access to high-
speed Internet, the vast majority of whom live in rural 
communities. In Minnesota specifically, over 400,000 people do 
not have access, and those that are lucky enough to have access 
may only have one provider to choose from. In a world where 
choices seem abundant, many Minnesotans are left optionless.
    When comparing urban and rural broadband deployment, 97.9 
percent of urban America has access to both fixed and mobile 
broadband, while only 68 percent of rural citizens have that 
same access. We cannot continue to leave our constituents 
behind just because they chose to live in rural communities. 
The lack of a solid business for rural broadband deployment 
remains the central reason for what is often referred to as the 
digital divide.
    Large telecommunications companies have little incentive to 
invest in broadband infrastructure in areas with low population 
density. Instead, small telecommunications carriers are far 
more likely to invest in rural communities, often because they 
are their communities. Frequently, however, these small firms 
face numerous challenges in their efforts to increase broadband 
access.
    Without the ability to disseminate the high cost of 
deployment or leveraged economies of scale, small 
telecommunications companies often rely on assistance from the 
Federal Communications Commission and the Department of 
Agriculture to mitigate these high costs. Back in Washington, 
we have heard from small telecom providers that serve rural 
areas that recent improvements to these programs have helped, 
but as always more can be done and will likely be done in an 
upcoming infrastructure bill.
    That is why today's hearing is so important. We need to 
know what our communities need to serve them better. I am very 
much looking forward to this discussion, and again I thank you 
all for being here.
    Mr. Chair, I yield back.
    Chairman GOLDEN. Thank you, Mr. Stauber.
    Actually, I am going to hand it right back to you and let 
you introduce the witnesses because this is your town, your 
district I should say.
    Mr. STAUBER. Okay, thank you.
    Our first witness is Adam Artz. He is the Owner of Realty 
Executives in Blaine, Minnesota. Originally hailing from Grass 
Lake, Michigan, he attended Saginaw Valley State University and 
majored in accounting. He has applied his trade all over the 
United States, working in North Carolina, Washington State, and 
New York, before finally seeing the light and moving here to 
the best state in the nation, Minnesota.
    [Applause.]
    Mr. STAUBER. He has been selling real estate in Minnesota 
and Wisconsin since 2000. Realty Executives has 20-plus agents 
and has approximately $50 million in yearly sales.
    Thank you for being here.
    Our next witness is Marc Johnson, the Executive Director of 
East Central Minnesota Educational Cable Cooperative, a 
telecommunications, technology, and distance learning 
cooperative of 14 K-12 school districts and Pine Technical and 
Community College in East Central Minnesota. Marc has worked on 
rural broadband issues since 2011, when the Kennebec Broadband 
Initiative began their work. He has worked with Pine, Mille 
Lacs, and Chisago Counties in recent years, and currently works 
with Isanti County High-Speed Internet Task Force. Marc has 
been part of the Minnesota K-12 Connect Forward, working with 
the group since its launch in 2016. This initiative is a joint 
partnership between the Minnesota Department of Education, the 
Department of Employment and Economic Development, and the 
National Non-Profit Education Superhighway who together are 
working to ensure that all students in Minnesota have access to 
the infrastructure and high-speed affordable bandwidth.
    Thank you for being here.
    Up next is Greg Carlson, the Executive Director of 
Partnered and Affiliated Boards at Cambridge Presbyterian Homes 
in Roseville, Minnesota. Presbyterian Homes stands on a rich 
and dedicated history of service and care for older adults in 
the Cambridge community. Grace Point Crossings opened in 1962 
and affiliated with the Presbyterian Homes and Service in 2006. 
Presbyterian Homes and Service, or PHS, is a non-profit, faith-
based organization providing a broad variety of high-quality 
housing choices, care, and service options for older adults. 
PHS serves over 25,000 older adults through 46 PHS-affiliated 
senior living communities in Wisconsin, Minnesota, and Iowa. 
PHS has earned the reputation as an innovative leader concerned 
with promoting independence, vitality, and well-being for those 
they serve.
    Thank you for being here.
    And last, our final witness today is our host, Matt 
Crescenzo, the Owner of Bulltear Industries here in Scandia, 
Minnesota. Bulltear was founded in 1989 and has been serving 
the auto parts industry ever since, providing custom-built 
milled and machine specialty auto parts nationwide. Matt and 
his wife Krista have three young daughters, and Krista works as 
a nurse at Gillette's Children's Hospital in downtown St. Paul. 
In addition to his work at Bulltear, he trains people of all 
ages on advanced manufacturing techniques.
    Thank you for being here.
    And now, Mr. Chair, I will yield back.
    Chairman GOLDEN. Thank you very much.
    I have to say that back in Washington, on the full Small 
Business Committee, I didn't really realize just how much 
Minnesota had infiltrated the Small Business Committee.
    [Laughter.]
    Chairman GOLDEN. But sitting up here, it is brutally honest 
that Maine is completely outnumbered on the Committee. But I 
will say on behalf of my three colleagues, it says a lot if you 
choose to be on something like the Small Business Committee. It 
is not the most exciting, it doesn't get the most attention 
from the press and the media and things of that nature, but it 
is a great place to try and do some good work for your 
community, so be sure to thank them for that.
    Normally, this is the part where I would talk about all the 
rules around testimony, mostly about time limits, 5 minutes 
each and then 5 minutes of questioning for people sitting up 
here, but I think we are going to do it a little more informal 
than usual. So we are not going to enforce some kind of clock 
on you, but I would just say maybe be mindful of the length of 
your testimony so that there is a good opportunity for some 
questions and back and forth. That is where I think the real 
educational part of the hearing will take place.
    So, with that, I am going to recognize Mr. Artz for your 
opening remarks.

 STATEMENTS OF ADAM ARTZ, REALTOR, REALTY EXECUTIVES, BLAINE, 
MN; MARC JOHNSON, DIRECTOR, EAST CENTRAL MINNESOTA EDUCATIONAL 
CABLE COOPERATIVE, BRAHAM, MN; GREG CARLSON, EXECUTIVE DIRECTOR 
OF PARTNERED & AFFILIATED BOARDS, CAMBRIDGE PRESBYTERIAN HOMES, 
  ROSEVILLE, MN; MATT CRESCENZO, OWNER, BULLTEAR INDUSTRIES, 
                       INC., SCANDIA, MN

                     STATEMENT OF ADAM ARTZ

    Mr. ARTZ. Thank you. Can everyone hear me okay?
    Good morning and thank you. Thank you so much for being 
here today on this important topic. It is my pleasure to share 
with you my feelings on this topic.
    You know, I think too much today people run to the 
government for everything. Government can't be all things to 
all people. But there are instances when things fall through 
the cracks, and that is when I think government can play a 
role, and I think that is exactly what this is.
    Internet is no longer a luxury. It is the foundation for 
the future growth and success of a community. Or it is a common 
denominator. Lack of it is a common denominator of failure and 
decline via the negative impacts that non-good Internet has.
    Personally for me, it has impacted my life in a couple of 
different ways.
    Number one, it has impacted my family. I have a couple of 
daughters that attended North Branch High School. I live in 
North Branch. I have offices in Blaine and in North Branch. My 
oldest daughter graduated in 2009. It has been a while, but 
nothing has changed. And to hear their frustration of getting 
cut off the Internet or not being able to get on the Internet, 
not being able to do homework, they can't upload a picture, and 
hearing their frustrations about that, and even later kids, I 
have spent some time in the school up there, and nothing has 
changed. My youngest daughter graduated in 2012; same same, and 
same same today.
    I mean, that is a problem. When they are frustrated, kids 
are frustrated and it is a source of stress, when there is 
unnecessary difficulty, it negatively impacts their ability to 
engage and excel. When that happens, that is a problem. I mean, 
there couldn't be anything more important than empowering. You 
can't make anybody win, but as a business person I put my 
people in a position to win, and I think that is what I think 
we need to focus on, making sure our kids have that opportunity 
to win instead of the negative impact of making it hard on them 
and putting roadblocks in front of them. I think that is an 
awesome thing for Congress and all of us to focus on. Certainly 
that can be bipartisan, something that we all care about our 
kids.
    The second way it has impacted me is as a business owner. I 
own a small real estate company, like I said, in Blaine and in 
North Branch. I have been in business for a while. It used to 
be when--I sold my first piece of property in 1985, of all 
things. It has been a while. But the first question we used to 
be asked was, ``Tell me about the schools.''
    Today, I bet nine out of ten times it is, ``Tell me about 
the Internet,'' because in my business we don't house agents 
anymore. Your phone is your office, and I think that is the 
same for all of us today. I mean, our phone, our smart phone is 
our connection to the world, and I think that is true with my 
real estate business. I just had a situation last fall, a house 
in my neighborhood in North Branch--great house, $329,000. 
Because of the situation, they bought a house in Forest Lake, 
less of a house for more money because of the Internet. So what 
that does is it impacts the community, makes it less desirable, 
less value, and it just hurts it.
    I can't upload pics from my house. I am right on the city 
limits in North Branch, right on Highway 5, if you know North 
Branch. I am just on the city limits, and I can't upload 
pictures to the MLS unless I go into my office, which is right 
in downtown. I mean, the core of downtown is okay, but as you 
get out, I am maybe two or three miles out of town and I can't 
upload a picture. Needless to say, you should hear me when I 
have to drive up to the office at 7:30 to get an initial on a 
piece of paper. I promised I wouldn't swear, but I promise you 
I do then when I have to do that, going into town. I mean, that 
is crazy today.
    The majority of all paperwork in our industry today is 
electronic signature, and stored electronically. When you can't 
do that, it makes my job really hard and it impacts my 
business, impacts the community. If two identical homes are 
available and one doesn't have Internet, that is a huge impact 
on values of real estate.
    I want to stay brief, and I think you get the gist of what 
I am saying. But, you know, negative impact builds, just like 
positive. It is a spiral. And we are negatively impacting our 
communities with lack of good Internet, negatively impact a 
family, negatively impact a business. Those things add up. I 
wrote negative impact on family plus negative impact on 
business equals rural communities in decline, and you see that 
all the time now in the paper about some small town out in 
Western Minnesota that is shrinking and turning into a ghost 
town.
    I think one of the things the Internet does do is it makes 
the community smaller and it makes them part of the community. 
I just wonder how much of a role that has played in Minnesota, 
because the housing out in those areas is very affordable. I 
mean, where you look in the core of the Twin Cities now, 
housing is really unaffordable to many, many people, and I 
think a huge help with that is being able to have people out 
where housing is more affordable.
    The old saying ``drive until you can buy,'' well, when that 
Internet runs out, that becomes not an option, and it is just a 
recipe for disaster to do that.
    Top-notch Internet is a foundation for growth and success, 
or a huge roadblock, and we all get to choose.
    And I am going to leave you with this one last thing.
    We have a remote-controlled vehicle on Mars, but I can't 
get on the Internet in North Branch. I mean, see what I am 
saying? So I would really appreciate anybody's help in fixing 
this as soon as possible. And I brought a map of Mars with me, 
but Miranda wouldn't let me show that to you guys.
    [Laughter.]
    Mr. ARTZ. So I gave it to her. I will give it to her as a 
souvenir.
    But thanks again so much for being here, and please fix 
this immediately.
    [Applause.]
    Chairman GOLDEN. Thank you very much, sir. That was great.
    Mr. Johnson, you are up.

                   STATEMENT OF MARC JOHNSON

    Mr. JOHNSON. Thank you, Chair Golden, Representative 
Stauber, Representative Craig, Representative Hagedorn, 
members, staff, guests. Thanks for holding this hearing today 
and for the opportunity to speak before the Committee this 
morning.
    Small businesses are the lifeblood of communities and rural 
areas in East Central Minnesota, as you have heard, throughout 
the state and around the nation. Agriculture, tourism, 
hospitality, manufacturing, healthcare, retail, and other 
sectors rely on the Internet to communicate with suppliers and 
customers, to provide their services, and to stay viable. These 
businesses also need an educated workforce willing to live and 
raise families in the rural areas.
    Without access to affordable high-speed Internet, 
businesses cannot thrive, families are less likely to locate in 
the area, and it is difficult to provide a fair and equitable 
education. Those of us who commit to life in a rural community 
are sort of forced to get by and make do with what we have.
    Northland Automation and Engineering is an engineering and 
manufacturing company located in rural Kanabec County just a 
few miles from Mora, Minnesota. The business is located on the 
farm of the company owner. If he or one of his employees wants 
to utilize simple video conferencing to meet with a client, 
perhaps show some parts, talk about customization, they often 
must make a 30-minute round-trip into town to utilize an 
available location with high-speed access capable of providing 
a stable video connection. He gets by, but he comments about 
the limitations his company has for expansion and taking on new 
clients due to when he is hampered by poor broadband access.
    And there are all kinds of stories like that, similar to 
this one, and as you just heard from Mr. Artz, people will 
decide not to locate in areas with poor broadband access and 
services. If we want a diverse workforce, strong communities, 
and ample opportunities for everyone to reach their potential, 
we must move beyond just getting by.
    How does education fit into this scenario? We live in a 
digital world, and education is no different. The Internet is 
routinely used for research, collaboration, communication, and 
general learning. We also know that learning does not take 
place only within the walls of a school building.
    In education, we cannot just ``get by.'' It is not okay for 
us to leave 20 percent or more of our students without the same 
learning opportunities as the other 80 percent. In the world of 
digital learning, that is exactly what is happening. In 
reference to one of the maps that I have included in the 
packet, according to statistics from the Minnesota Office of 
Broadband Development, eight of the twelve school districts in 
the Region 7E economic development area, East Central 
Minnesota, are below 80 percent for percentage of households 
served by broadband speeds that fit the FCC definition of 
broadband, and two of the districts are below 50 percent.
    So essentially, in these areas, we are leaving 20 percent 
to 50 percent of our residents behind, many of whom have 
children, some of whom are trying to run a farm or a small 
business from their home, and others who may be accessing 
online courses or completing assignments from higher education 
institutions. We have several technical and community colleges 
in this area who have many students who are not able to get to 
campus to access the Internet. They need to be able to do their 
assignments and so on from home. That is difficult when you 
don't have good access.
    Most of the K-12 school districts in our region, have 
placed mobile devices in the hands of their students intended 
to be used both in class and at home, and they are often cited 
as one of the most impactful technology-related tools for 
teaching and learning.
    Troy Anderson, Principal at Pine City High School, says: 
``Without a doubt, Chromebooks have been the most impactful for 
our district. They have started to replace textbooks and are 
used for communication between students and staff.''
    Dr. Ray Queener, Superintendent for Cambridge-Isanti 
School, adds: ``As curriculum continues to migrate to digital 
and as more and more resources are available digitally, our 
Chromebook 1:1 initiative has greatly impacted teaching and 
learning in our district.''
    Minnesota has a grassroots project called the Minnesota 
Partnership for Collaborative Curriculum. I am proud to say 
that the schools in ECMECC were pioneering members of this 
collaborative, and it has grown to involve over 225 school 
districts. The goal of this project is to create a 
comprehensive collection of digital open resources in the four 
core subject areas for grades 3-12. These resources are created 
by educators and centered around Minnesota's content standards 
and made available to Minnesota schools at no cost. They are 
designed to be used with the mobile devices that students are 
using and have the potential to replace the use of expensive 
textbooks and purchased content.
    However, in our region, expensive and slow broadband 
hampers our ability to fully utilize these resources that our 
teachers helped create.
    Dean Kapsner, Superintendent of Isle Schools, comments on 
this, saying: ``The lack of reliable Internet access affects 
how we can deliver curriculum and assignments outside the 
school day and has stalled our efforts to create a viable e-
learning plan.''
    Steve Bistrup, Technology Coordinator in Milaca, agrees, 
writing: ``The lack of rural broadband has played a significant 
role in limiting our ability to fully transition to digital 
learning.''
    As with small businesses trying to thrive in this 
environment, schools find ways to make do. Long route buses in 
some of our districts are equipped with onboard Wi-Fi. Schools 
have purchased mobile hotspots to provide to students without 
adequate home access. But these solutions only work in areas 
where there is a reliable cellular connection, which cannot be 
assumed in many rural parts of our area. In fact, when I drove 
up, I didn't have a cell connection, or a very minimal one when 
I got here. We are not very far from a town. Other 
accommodations include keeping areas of the school open longer, 
providing printed or other offline materials, extending 
deadlines, et cetera. All of these accommodations result in 
some students not receiving the same, or in some cases even 
similar, educational opportunities.
    The Minnesota legislature passed a law in 2017 that allowed 
schools to use e-learning days in lieu of weather-related 
school closings, which around here we have quite often. You 
probably do in Maine, as well. To count as an instructional 
day, students need to be able to access assignments and 
resources online, and teachers need to be available online to 
answer questions. That is written into the law. This winter, 
some Minnesota districts utilized more than five of these days. 
In our region, no schools were able to take advantage of this 
opportunity because they could not count on all students or 
staff having adequate Internet access.
    Superintendent Robert Prater of Hinckley-Finlayson schools 
indicated: ``We do not use e-learning days because broadband is 
not reliable enough or widespread enough.''
    Amanda Thompson, Technology Integration Specialist at East 
Central Schools, agrees, saying: ``I have concerns about both 
students and staff being able to access the Internet from home 
to fully engage in an e-learning day.''
    Our students and families are being left behind in the 
digital age. Craig Schultz, Superintendent of Schools in Mora, 
asks: ``Is it truly a free and appropriate education when there 
are significant broadband issues between families just miles 
apart within a district, let alone across districts in the 
state?''
    We need to resolve this issue or families will move away 
from rural areas with poor access and inequitable educational 
opportunities. There will be fewer people to fill the jobs in 
small businesses that have tried to get by, and our rural 
communities and way of life will wither away. Like rural 
electrification and telephone did for rural areas in their 
times, we need rural broadband to make rural living viable and 
a choice that people want to seek out rather than flee.
    Thank you.
    [Applause.]
    Chairman GOLDEN. Thank you, sir.
    Mr. Carlson?

                   STATEMENT OF GREG CARLSON

    Mr. CARLSON. Representatives, I would thank you for hosting 
this, and Committee members, thank you for your time here and 
the opportunity to address this issue. We are going to come at 
it from a health care perspective.
    For most of us, the word ``home'' holds a special meaning. 
You may recall the song recorded by Elvis Presley, ``Home is 
Where the Heart Is.'' Now, I am not going to sing it for you, 
but he describes home with the following lyrics: ``I don't need 
a mansion on a hill that overlooks the sea, anywhere you're 
with me is home. Maybe I'm a rolling stone who won't amount to 
much, but everything that I hold dear is close enough to 
touch.''
    And near the end of the movie The Wizard of Oz, Dorothy 
clicked her heels and stated, ``There's no place like home.'' 
She longed to leave the wonderland of Oz for her simple, dusty 
old farmhouse in rural Kansas.
    As healthcare providers, we are called to help individuals 
and their families live well in the place they call home, and 
in our rural county that may be the family farm, or in mid-
winter Minnesota it may feel more like an igloo, cold outside 
but warm inside. The idea of living a long, healthy life at 
home hits a home run for the people of rural Minnesota.
    Imagine for a moment a seamless coordinated care model made 
possible by new technology resulting in better patient outcomes 
and a purposeful, cost-effective, self-fulfilling healthcare 
experience. One way to accomplish this objective is to reduce 
our reliance on our acute care, rescue-oriented health system 
while reinvesting those dollars in life enrichment and 
purposeful living in the place one calls home.
    Data provided by Kaiser Health shows that long-term, only 
about 10 percent of our individual overall health is driven by 
our health system. Not surprisingly, most of health is driven 
by where we live, our home environment, our genetics, and our 
behaviors.
    Approximately 40,000 people live in Isanti County. Nearly 
60 percent reside outside the city limits of Braham, Cambridge, 
and the City of Isanti. Most of these rural households have 
less than adequate Internet, making it difficult to access 
preventive healthcare services, leaving them susceptible to 
fragmented, episodic care and poorer health outcomes.
    Electronic health records, technology-based patient 
engagement strategies, health information sharing, and remote 
monitoring technologies all require high-bandwidth broadband 
connections. Such telehealth technologies help overcome many of 
the obstacles to healthcare delivery confronting our rural 
communities. In particular, we see enormous potential to expand 
access to certain services and improved patient outcomes, 
including what we hear a lot about today, mental health and 
addiction services.
    Telemedicine and mobile health are rapidly emerging as 
cost-effective solutions to overcoming many of the obstacles to 
healthcare delivery. The proper infrastructure must be in place 
to allow for these and other technologies to be implemented in 
the home.
    Consider the potential of a simple array of sensors 
strategically placed throughout a residence of a home-bound 
adult. Without infringing on their privacy, these sensors link 
to a computer program and could monitor things such as room 
temperature and/or whether the refrigerator door has been 
opened or not, usual patterns of motion, lighting and various 
home safety devices. Any unusual interruption or change in 
pattern would alert the designated family member, a friend, a 
neighbor, or a healthcare person that would be able to respond 
if appropriate and necessary.
    For the Cambridge Medical Center, planning involves 
leveraging technology for the patient-facing experience and 
interaction. The objective is to enhance the online experience 
by expanding the reach of telehealth and mobile health 
technology with improved access to online scheduling, video 
visits, medical messaging with patients, and online video 
education. This, in turn, leads to shorter wait times, 
screening concerns before an emergency occurs.
    Limited access to high-bandwidth broadband connections is a 
concern for physicians. Specialists are often required to 
access files or view images initially from home to expedite a 
medical intervention such as urgent care or emergency care 
services. Dr. Amy Haupert, a family practice physician at the 
Cambridge Medical Center, shared with me that in addition to a 
full day of meeting with patients, she spends two or more 
additional hours completing required documentation. As a 
result, accessing patient medical records at home is essential 
for her to balance work and family life. Reviewing progress 
notes, completing insurance forms, scheduling, responding to 
patient concerns, these issues require physicians to have 
access to medical records 24/7.
    It is no secret that resources are being stretched in 
healthcare. Labor is tightening, and providers are being asked 
to do more with less, while assuring patient safety and 
satisfaction. Healthcare is quickly moving from fee-for-service 
to a value-based delivery system. Success will require the 
ability to deploy telehealth, particularly as part of care 
management programs.
    Ensuring communities in rural areas can take full advantage 
of the benefits of telehealth solutions requires access to 
reliable and affordable broadband connections. Telehealth 
offers a wide range of benefits, immediate access to care, 
reduced cost, and offers more convenient care options and 
improved care outcomes.
    The Isanti County Broadband Task Force and area health care 
providers appreciate your focus on expanding broadband 
connectivity, and we are grateful for the opportunity to share 
our rural perspective. Thank you.
    [Applause.]
    Chairman GOLDEN. Thank you, Mr. Carlson.
    Mr. Crescenzo, thank you for hosting us here in the shop 
today, and we look forward to hearing what you have to say.

                  STATEMENT OF MATT CRESCENZO

    Mr. CRESCENZO. Hello, friends and neighbors. My name is 
Matthew Crescenzo. I am a 44-year-old father of three young 
girls and a husband to my wife Krista. Krista is a nurse at 
Gillette Children's Hospital, located in St. Paul, Minnesota, 
and works in the child brain injury rehab unit. I work in this 
building designing automated machines like our Star Lab CNC 
plasma machine. The Star Lab is a CNC machine that uses the 
fourth state of matter to cut materials along a computer 
program path. I am the chief engineer of the machine, and 
together with our partner Hypertherm, we offer an outstanding 
machine in this market.
    I train folks at universities, high schools, businesses, 
and garages, and I have trained well over 700 times across the 
USA and have been fortunate enough to train the deaf and have 
quadriplegic customers who are among the sharpest minds.
    The place you are sitting at was only possible through use 
of the Internet, a unique gift of communication between people. 
We would be having this meeting near a 100-year-old barn ready 
to collapse; wouldn't that be exciting?
    When I suffered a spinal injury on the job, my world became 
small. Frustration and desperation were weighing heavily on my 
heart. I pooled my resources and stretched my mind's capability 
beyond my expected personal limits. With the help of my good 
friend David Boucher, who currently works at Toro company and 
who set up a website for me, I was able to take my ideas and my 
dreams of machine products, bringing them to the Internet and 
discovered a vast amount of interest in these parts that I 
dreamed and engineered. I was able to take my passions to 
market.
    It was the Internet that allowed this to exist out of the 
idea of offering something awesome for a good price. I could 
not have done it without the Internet and without my father, 
Peter Reed Crescenzo, who challenged and supported me, 
sometimes challenged more than supported.
    [Laughter.]
    Mr. CRESCENZO. But that is a father's burden. I love and 
respect my father.
    Where this company has come so far today I could not have 
imagined years ago. We have seemingly unlimited potential for 
growth here. We are ready to take the next steps, and I am 
ready to take a paycheck.
    We fumble through our day using the local Internet. It is 
as important now as it was when I started this business. We 
even have a dedicated line of 10 megabits up and 10 megabits 
down, which really wouldn't get you a hot dog in the Twin 
Cities, and that is nearly $300 a month. That is the very top 
capability of our monopolized service provider.
    We deal with dropped calls when using the Internet and 
rebooting our modem several times a day. I thought I was alone. 
For years we were rebooting our modem in the house, in the 
shop. It wasn't until my friends and neighbors told me they do 
the same thing.
    Our business relies on positive customer experience, not 
volume, but the network of very happy customers has kept us 
busy--and boy, are we busy. We are grateful for that.
    It is crucial to our success that we can upload training 
videos, download customer files, and talk on the phone without 
interruption. The infrastructure is toast out here. We need a 
way forward.
    The technology has moved beyond our rural areas 20 years 
ago. I have seen businesses close because they cannot have a 
robust security system tied to the Internet or really cannot 
develop without access to high-speed Internet.
    Businesses are moving out of state not only because of 
local ordinances but because of the vast desert of little to 
no-speed Internet that we have here.
    Friends and neighbors, we need real help for our community 
to prosper. I commend you folks before us for shining a bright 
light on our dimly lit network.
    Communication between people is what makes good communities 
and binds the heart of mankind. The invention of the Internet 
was brilliant, and I believe it was inevitable.
    However, without bolstering our community and supporting 
ideas like this, we remain in a very dark age.
    The industrial revolution is not over. It has changed, and 
we compete with the world now. In many ways, industries have 
gotten cleaner, better, and smarter. For example, our partner 
Hypertherm is a gleaming example of an employee-owned Fortune 
500 company that takes green to the next level without 
sacrificing quality.
    But we need faster Internet out here. This business needs 
to get training videos online, download customer videos, and 
get our service and support to today's standards. We are 
struggling daily with this.
    In ending, I would like to thank you for coming out to our 
field of dreams, and I look forward to your comments and 
questions. Thank you.
    [Applause.]
    Chairman GOLDEN. Thank you very much for that, sir. And 
thanks again for having us here.
    I can't help but listen to the four of you and think about 
back home. The similarities are quite striking. So I thought I 
would just throw out a couple of questions to you to kick it 
off. There are no right or wrong answers here. We are really 
here to listen and learn.
    Just so you all have a sense of the types of things that we 
think about on the Small Business Committee, Congressman 
Stauber and I, it is not just things like having broadband 
access that we think about. It is also the ways that government 
sometimes makes decisions that get in the way, makes decisions 
not really understanding areas like this one.
    Back home in Maine, just as an example of that, Madawaska, 
Maine is a paper mill town up on the northern border, right on 
the Canadian border, and up there I was talking to a gentleman 
running a small business. It wouldn't be there if it wasn't for 
the paper mill, and he is a big part of their supply chain. But 
having access to faster Internet is one of the chief challenges 
that holds him back from growing.
    He does a lot of work with the SBA historically, when he 
needed a loan or something of that nature to make an extension, 
make a good investment in his business, and lately he stopped 
working with them because SBA has gone ahead, in their infinite 
wisdom, and said, well, we are in a digital age now, so we are 
going to move everything online. He used to fill out all the 
forms and applications by paper, and he finds it so much slower 
and frustrating now because his Internet speed is so much 
slower than advertised, and he finds it frustrating. He will be 
halfway through the process and all of a sudden the thing stops 
working and he has to start all over again. It drives him nuts. 
So now he is going to other lenders instead of using an SBA 
program that is there to give him a lower interest loan and 
help a small business grow.
    So those are the types of small decisions that we are also, 
I think, always looking to see how can we make sure that 
government is making decisions with an eye on you all.
    I just wanted to ask you, I know you are not going anywhere 
because you love this community, but back home in Maine 
recently I listened to three different towns in western Maine 
talk about how they are all competing for a manufacturing firm 
that is looking to move into western Maine, and the source of 
competition, the final decision is where can they get the 
fastest Internet. A couple of them are trying to compete for 
grants to get that last mile because there is some backbone 
pretty close to where they are but it is not quite coming into 
their town. These are the types of towns that have lost a lot 
of manufacturing through the years, so they are desperate to 
get something back.
    I am just curious, you seem to talk a little bit--you are 
in the weeds compared to me. You talked about 10 up, 10 down, 
25 and 10. I don't know what all this stuff means, to be honest 
with you, but I listen to people like yourself. If you were 
starting over again, what is the Internet speed that you would 
be looking for if you were talking to someone about buying some 
property to build a business?
    Mr. CRESCENZO. If we were to look at the broad scope of 
starting over or building a building, we wouldn't do it with 
this Internet. It would be the kiss of death for our business 
model. You really use a lot more bandwidth as you grow. So 
having the bandwidth available is like having the land 
available, having the construction company available to build 
your building, or somebody to do concrete. It is very 
important, and it is amazing in this day and age that it has 
become so important. But it has a huge positive impact on our 
business when things work correctly; and when they don't, we 
are spending an enormous amount of resources trying to get them 
to work correctly.
    So I would look at that and say where we are at today, we 
would not start fresh here.
    Chairman GOLDEN. So, I am curious. Some people are happy 
with where their business stands, and it sounds like you have 
been very successful, and you have the dream job that you have 
created here. But if you had access to faster Internet, could 
you and would you grow and create more jobs in this community?
    Mr. CRESCENZO. That has been my goal, to grow in this 
community and create jobs. So we are working with the county to 
allow light manufacturing. Where we are at, to be able to 
expand and be able to move into the greater industrial parks--
and I am a big, firm believer in this county. We have a lot of 
great talent pool to choose from, and we want to support the 
local businesses here. We are here, our heart is here, my 
family is here. We want to stay here.
    Chairman GOLDEN. Thank you very much.
    I wrote a little note here, Mr. Artz and Mr. Johnson, while 
you were giving us your opening statements: Ask them if there 
is a workforce shortage in this district. I figured I knew the 
answer, but he wrote ``yes'' with two exclamation points, and I 
am not surprised at all.
    I am just curious. Our problem in Maine, Mr. Artz, often is 
that as we try to address our workforce shortage, and it is 
often things like lack of broadband that leads a lot of our 
graduates and young people--they go away for college, and when 
they start thinking about going back, it is lack of these types 
of things when they start thinking, oh, maybe I will settle in 
southern Maine instead of northern Maine, or not even come back 
to the state at all.
    But often we hear a lot of people talk about, well, you 
know, I found that dream opportunity to come back home to 
Maine, or someone looking to take a job in Maine, but they had 
a spouse who also needs an opportunity to work, and the 
Internet figures in a big way in a lot of cases to the ability 
to work from home, work remotely, maybe even keep the job they 
have so that they can move the family and take that other 
opportunity for their husband or wife.
    I just thought I would give you an opportunity to maybe 
tell us if you have heard those stories as a realtor and what 
types of missed opportunities. I don't know if you have any 
specifics, but we would love to hear them.
    Mr. ARTZ. Yes, I do. You know, it is true. Last fall, the 
City of North Branch was working with the Minnesota design team 
on some reconfiguring of North Branch and what opportunities, 
because it faces those challenges you are talking about.
    And it was interesting because we went to the school and we 
asked the kids questions about the future, because one of the 
questions that was in everyone's mind was what would keep you 
here. So one day my 25-year-old daughter and her friends were 
hanging around and I said, you know, girls, what would keep 
you? What would keep you in North Branch versus moving to the 
Twin Cities or somewhere else? And it was interesting because a 
lot of times you think you might know the answer, and when you 
ask a kid you get the real answer.
    And she said, you know, dad, affordable housing, affordable 
housing and opportunity, and that is not there without the 
Internet. They are not going to go anywhere where there isn't 
affordable housing. And like you said, the spouse that can't 
have an opportunity in a rural area, it is just a recipe for 
not being successful and a disaster, and it does directly 
affect the real estate business.
    The blessing of our industry is I do hear a lot of things. 
You hear the real story. So I do think the communities having 
good Internet, like everyone is saying, it pulls that community 
closer. It makes affordable housing more. It makes that 
community more vibrant, it makes it more desirable because they 
can buy way more of a house. They become part of the community, 
which enriches the school. It is a spiral, a domino effect, and 
a domino effect back.
    So, yes, I do hear that a lot, and those are the number-one 
concerns. But like I said, Internet access, affordable housing, 
they kind of go hand in hand. So I hope that answers your 
question.
    Mr. STAUBER. Thank you, Chairman Golden.
    Mr. Johnson, one of my questions for you is what are some 
of the biggest differences that you are seeing in schools that 
are connected versus schools that aren't?
    And before you answer that, I would just say that I have 
four kids. They are using the Internet in the City of 
Hermantown, where I live. The location where I live, we have 
high-speed access, and they can do their homework. Just down 
the road, they don't, and that is frustrating for those 
parents.
    So I will ask you as folks that work with the schools--what 
is your thought on the question, connected versus not?
    Mr. JOHNSON. Sure. Thank you, Representative Stauber. 
Excellent question.
    I think when I talked about being in the digital age and 
that ability to take that device home, most schools in 
Minnesota are doing what we call one-to-one initiatives, right? 
Where they give a device, a Chromebook, a tablet, in some cases 
it is a laptop, to students, and then they design their 
learning around that. That becomes their hub for learning, that 
device, right? And they use technology to access assignments. 
They use technology to access--in some cases, what you will see 
in the places where they can truly extend that to the home, 
there are terms like--you will hear ``flipped learning.'' That 
is a term you will hear, and that is a situation where they 
will change the way classroom instruction is done where an 
instructor will do a lesson, a lecture, examples and things 
like that, via video, right? Students will take that home, 
consume that at home, and allow for the classroom time to be 
group learning rather than having them have to sit and listen 
to a lecture and see examples for half an hour, and then have a 
little bit of time to do their homework, and then they go home 
where they can't get questions answered.
    In an environment where digital learning is really in 
place, an instructor can provide sort of that initial learning 
at home where they can consume it, and then they can come back 
to the classroom and actually interact with the instructor on a 
more personal basis, get their questions answered and so on.
    So I think that is a big difference in what you will see. 
Those districts that have good-quality access at home, they are 
able to leverage all of that. Those who don't, you have that 
10, 20, 30 percent or more of students where you have to give 
them alternate instruction, and it is less effective for them, 
and you have minimized what you can do with the whole group 
because you are sort of dealing with the lowest common 
denominator in a sense. Okay, these students who didn't have 
access, we have to help them, we have to bring them along, less 
time to spend on those who had access.
    And if I can, for a moment----
    Mr. STAUBER. Go ahead.
    Mr. JOHNSON. Chair Golden, you asked the question about 
bandwidth and what is necessary. One thing I will point out is 
the FCC defines 25 meg down and 3 meg up. I think it is that 
``up'' part that is problematic, especially for businesses, for 
healthcare. That piece is important if you are going to do 
healthcare monitoring. It is important if you are going to be 
able to upload your videos and your files and so on. So I will 
just add that piece to your question about that.
    Sorry, Representative Stauber.
    Mr. STAUBER. Thank you, Mr. Johnson.
    Mr. Carlson, you talked about the healthcare. So I was on 
the County Board of Commissioners and the Community Health 
Board, and we talked about the telehealth, how important it is. 
For instance, you talked about the mental health initiative 
going across the country. In northern Minnesota, if you don't 
have the ability to connect, that means that a law enforcement 
officer who brought the individual in who was a danger to 
themselves or others would have to travel all the way to 
downtown Duluth, which takes him or her out of their district, 
when they could get that high-speed connectivity in their 
location and the doctor can interact over Skype or over the 
monitor, which is going to save literally hundreds or even 
thousands of dollars even for one trip. So I was very well 
aware of that.
    So when you talk about connectivity for the seniors, you 
talk about mental health. Can you tell us how important it is 
for those seniors that you are taking care of, living in their 
home, how important it is to connect to their children, their 
grandchildren, what that does for their mental health?
    Mr. CARLSON. Yes. Thank you. It goes back to an earlier 
point that I made where Kaiser Health had indicated in their 
data that it is really just the 10 percent of healthcare that 
is driven by our health system, and it is the rest of it that 
involves the quality of life. So that kind of connectivity, a 
soft kind of a thing, being able to connect with family, 
grandchildren and so forth, it improves one's well-being, their 
sense of purpose, improves the quality of life, keeps them more 
engaged, and the effects from that is really the bulk of what 
really produces good health.
    Mr. STAUBER. And I think that is important to note. We are 
not talking a lot about that part of the quality of life. I 
just want to share with you and the audience members that when 
my wife was deployed, having the ability for my kids to see mom 
over Skype was huge, and you talk about the mental health, 
being able to see mom, and this goes across the country. So if 
we hadn't had that opportunity, it would have been a much 
more--it was tougher for me, but I am talking when you get back 
to the seniors, I think it is so important that they connect. 
When they are able to see their grandkids or siblings or 
relatives over the Skype or being able to connect with them 
right away, I think that is so important. That is part of the 
healthcare that we don't see because that is the quality of 
life that is important.
    Mr. CARLSON. Representative Stauber?
    Mr. STAUBER. Go ahead.
    Mr. CARLSON. Just an additional comment to that. In my 
experience, what I have seen with older adults, they shy away 
from anything--you know, the technology. But it is that one 
thing, the idea of connecting with family, that drives them to 
learn how to use the Internet.
    Mr. STAUBER. My parents are in their mid-80s and just 
starting to send videos to the grandkids now, so they can do 
it, for sure.
    Mr. Crescenzo, one question for you. You made a statement 
that you would not locate here if you had it to do over again 
because of the lack of Internet and the quality of the high 
speed; is that correct?
    Mr. CRESCENZO. I feel like it is important to note that at 
this stage in this business, it is required. When we initially 
located here, it was to raise kids, it was to do what is 
affordable. Now we are in a different, bigger ball game, so we 
need this bandwidth to really flourish with this business. And 
if we were to do it over again, where we are at now, we 
couldn't do it here.
    Mr. STAUBER. And those of us who represent rural Minnesota, 
rural America, that hits right to the--that hurts to hear you 
say that, but that is the truth. And that is exactly why we are 
here, to make sure that the people that want the quality of 
life outside in rural Minnesota, rural America, can have that 
opportunity.
    Mr. Artz, you talked about in your real estate business--
and this will be my last question. You talked about in your 
real estate business the ability to--that first question, is it 
connected to the Internet or not. A house that is worth 
$250,000 connected to the Internet or one that is not, how 
quick of a sale is it to connect? Like right now?
    Mr. ARTZ. Yes, it is night and day, and it is really not a 
matter of value. It is a matter of they don't want the house if 
they can't connect, because people don't want to go through 
what he does. I mean, they don't want to deal with that. They 
see that as not an option for the kids anymore, and themselves. 
So, yes, absolutely. Two equal houses, the value is night and 
day difference, and it doesn't mean if it is $10,000 less they 
will buy it, because they won't. It is amazing that that has 
become so prevalent, because when some of us older people grew 
up, we had books and we never had any of that stuff. I used to 
carry coins in my car to go to the pay phone, where today it is 
just a reality of life now.
    Mr. STAUBER. Was the pay phone a dime or a quarter?
    Mr. ARTZ. Well, a dime.
    [Laughter.]
    Mr. STAUBER. Me, too.
    Mr. ARTZ. But a little later the quarters, yes, so you 
always carried those.
    I mean, I could never imagine the technology that we have 
today, but this is electricity back in the day that our parents 
or grandparents were----
    Mr. STAUBER. I can tell you every realtor that I talked to 
would answer that with the same passion you just had. It is the 
Internet that makes the difference, so I appreciate your 
comments.
    Mr. Chair, I yield back.
    Chairman GOLDEN. Thank you, sir.
    With that, we will recognize Congresswoman Craig.
    Mrs. CRAIG. Thank you so much, Mr. Chairman.
    My name is Angie Craig. I represent Minnesota's 2nd 
Congressional District. That is essentially southeastern 
Minnesota. About half of my district geographically is actually 
greater Minnesota. So having grown up in rural Minnesota, or 
having grown up in rural America, it is so critical that we 
start to make these investments, and I feel really, really 
lucky to serve both on the House Committee on Small Business as 
well as the Transportation and Infrastructure Committee with 
Congressman Pete Stauber. He and I have been working together 
on some things we care deeply about, and it is great to be in 
your congressional district.
    I know a little bit about your district, Mr. Artz. As you 
were saying, you were talking about just two or three miles out 
of North Branch. We have a cabin about eight miles out of North 
Branch, and I can't tell you how many times we have had to pack 
up the cabin early so the boys could get back to Eagan and turn 
their homework in or get their homework done. So that 
particularly resonated with me.
    My background is I worked in two healthcare manufacturing 
companies before I represented Minnesota 2, and I now own a 
little part of a small business just outside of my district. So 
this is just a critical conversation that we are having, and I 
know Pete and I have said that any infrastructure package we do 
has got to prioritize investment in high-speed Internet in 
rural America because at the end of the day, every American 
deserves the freedom to have an opportunity to earn a good life 
where you want to live, and many of these communities are dying 
because we haven't made that investment.
    So thank you for being here, and everything I have heard 
here is exactly what you would hear if you were down in 
southeastern Minnesota in my congressional district.
    Mr. Carlson and Mr. Johnson, I spent, again, over 20 years 
working in healthcare, and I want to apologize first because 
when I leave, when I am done, I have to go back to my district 
to talk about healthcare on a panel right after this. But you 
talked about mental health in rural areas, and you also talked 
about, which I love, moving away from this fee-for-service pay 
system, and how being able to move to an outcomes-based system 
depends on the ability to have telemedicine in rural areas.
    So, Mr. Johnson and Mr. Carlson, talk a little bit more 
about each of those topics.
    Mr. CARLSON. When I hear the news locally and nationally, 
the issue of addiction, the opioid crisis and what not, when I 
speak with law enforcement people and the challenges that they 
face, whether it is traffic issues or intervention in family 
issues, whatever the case might be, the need to intervene in a 
meaningful way is really critical. But many people who are 
isolated out in the community, they might go in for treatment, 
and once they finish treatment they are back into that home 
environment where maybe it is a toxic environment, or whatever 
the case might be.
    I certainly am not an expert on that end, but I do know 
that the ability to maintain some connection--and I know there 
is technology that can help with that. There are programs. 
There are ways of checking in and so forth. But in helping 
people move further away from their addiction or their mental 
health issue, that period of time is critical. If it is just 
simply a discharge from a treatment program and then they are 
back home or back to wherever their living situation is and 
there is not the ability to have a robust follow-up kind of a 
program, the likelihood of a repeat of that kind of behavior is 
significant, much higher.
    Mrs. CRAIG. Thank you. I know in my district, sometimes you 
have to drive 30 or 40 miles just to get to the closest follow-
up or preventive health, and the ability to do that via 
telemedicine would just be critical.
    Mr. Johnson?
    Mr. JOHNSON. Sure. Thank you, Representative Craig. In the 
schools we have mental health issues with our students as well, 
and of course we lose many students in the United States to 
suicide and other things related to mental health, so it is a 
huge issue.
    There are a number of things involving telehealth within 
the mental health community that would help. Some of our 
counselors and mental health professionals in the schools would 
or could, because again sometimes you have to share them, small 
rural districts, you have to share these staff among districts, 
and then that involves travel time for them to get back and 
forth, and technology can play a role in that, and high-speed 
Internet in terms of having a telehealth meeting with those 
students in a different school building if you are a shared 
staff person. I think there is a lot of opportunity for that, 
and there is opportunity to extend that further to the home if 
at home they have that same access. So I think that is an 
important thing.
    I will go back also to what I said about upload speeds. If 
you are going to have that kind of connection with somebody at 
home, you need the upload speed to make that happen, or if you 
are going to have monitoring, or if you are going to provide 
services, whether that is mental health or other healthcare 
services to people at home, you have to have that other side of 
it. Download is great; upload is what you really need for me to 
be seen on the other end.
    Mrs. CRAIG. Absolutely. What else would, from a small 
business perspective, help you if we were to invest in around 
that? I mean, we are talking about transportation and 
infrastructure as well. Is it just high-speed Internet? Is it 
highways, roads, bridges? Any thoughts there?
    Mr. CRESCENZO. That is a tough one. I really have to 
consider the brevity of the entire roads, bridges. We are in a 
rural area, so we are between major lanes of transport, between 
the Twin Cities and Hudson and access to the great state of 
Wisconsin. So we look at what would benefit our business. The 
only thing holding us back here is a go-for-it. We don't need 
much more than an okay from the county and high-speed Internet, 
but we may be an exception.
    Mrs. CRAIG. Thank you.
    Thank you, Mr. Crescenzo, and thank you for sharing your 
beautiful family with us here today.
    Mr. CRESCENZO. Thank you very much.
    Mrs. CRAIG. Thank you.
    I yield back, Mr. Chair.
    Mr. ARTZ. Can I make one last comment on what you said? 
With the Internet, what I wonder is what is being missed. When 
we provide that Internet to everyone, I think it is going to 
unleash the entrepreneurial creative spirit of America that 
must be massive untapped talent out there.
    Mr. STAUBER. I call that unleashing the economic engine of 
Minnesota's 8th Congressional District.
    Chairman GOLDEN. Congressman Hagedorn?
    Mr. HAGEDORN. Well, thank you, Mr. Chairman. It is a 
pleasure to be here. I appreciate you holding this hearing. It 
is good to see Congresswoman Craig, our colleague from 
Minnesota; and last but certainly not least, my good friend 
Pete Stauber. Mr. Ranking Member, thank you for suggesting this 
venue. It is an honor to serve with all of you in Congress and 
be working on the Small Business Committee to try to move 
things along here in rural Minnesota.
    I grew up on a grain and livestock farm down in Truman, 
Minnesota. Actually, the 1st District that I represent is most 
of southern Minnesota, all the way from South Dakota to 
Wisconsin, and then Iowa up about 80 miles. The little town 
that I grew up in used to be a hopping place--three grocery 
stores, seven gas stations, and on it goes. It is still about 
1,000 people, but there is not much of that going on.
    Times have changed, and rural America has been squeezed for 
many decades now, and we have been under pressure, especially 
hearing about the last six or seven years, low commodity prices 
in agriculture, high input costs, and you need fewer and fewer 
people with all our mechanization and technology to work the 
land. Where I come from, if agriculture suffers, so does our 
district.
    But we also have other interests, small business interests 
that are very important, medical interests. We have awesome 
rural hospitals in southern Minnesota, and then there is that 
clinic you may have heard of, the Mayo Clinic, which is in our 
district.
    And then up here you have interests like mining. I 
appreciate what the Ranking Member has been doing, and his 
predecessor for that matter, to bring mining back, have those 
good-paying jobs, and to create opportunities in rural 
Minnesota. Pete, you have my support on that, whatever you need 
to move that forward.
    But let's be honest, if we don't have people living in 
these areas, it doesn't really matter what industries we have, 
we are still going to suffer. And some of that is quality of 
life, as you have talked about, to make sure that we can 
attract people, keep people, want people to be in our rural 
communities. A lot of that is just infrastructure. Do we have 
good roads, good bridges? Do we have sewer and water?
    A long time ago in the rural areas, they went in with the 
RA and made sure we had electricity, and this case is no 
different. This is an infrastructure issue, it is a quality of 
life issue, and if we don't have it, we are going to suffer. It 
is going to be very difficult for our folks to keep those 
communities sustained and vibrant, which is one of my 
priorities.
    I will ask Mr. Carlson, when we talked a little bit about 
telemedicine, I think that is an emerging area. The Department 
of Agriculture has some sort of standard, the 10 megabits per 
second versus 1, and you are saying you have to have at least 3 
in order to do just face-to-face conversations. Is that true?
    Mr. CARLSON. Well, as it relates to technical questions, I 
am not the person you want to ask that question. Maybe Mr. 
Johnson can----
    Mr. HAGEDORN. Well, is there anyone here who can--the 
standard that Agriculture has I don't think is going to be 
conducive. Bill Eckles, who heads up Bevcomm in my home town, a 
telecommunications company, said 25 and 3, which is what you 
talked about, seems to make more sense. That is what we should 
be building towards and spending our money towards. Is that----
    Mr. JOHNSON. Thanks, Representative Hagedorn, for the 
question. The previous--like some of the CAF programs, the 
Connect America Fund programs, where they had a 10 megabit 
down, 1 megabit up, that 1 doesn't do you much, especially if 
you are trying to do--well, it won't do a video conversation 
very well at all. So that productivity piece of the upload 
speed, 1 is pretty inadequate.
    Twenty-five/3 is what the FCC has more defined as 
broadband, and that is better. I would argue that you need 5 to 
10 up when you get into the business world. I would think you 
would have to have that. Again, that is my opinion, right? I 
think you have to have that kind of speed, or better. And if 
you are dealing with very large files, CAD files, things like 
that, then upload speed even has to go a little bit more.
    Mr. HAGEDORN. Okay. I bring this up to take a little bit of 
a sidestep issue, and that is in the area of telemedicine. I am 
somebody who supports the concept, for instance, that our 
veterans should be able to choose their own doctors and 
hospitals, that our veterans should have the choice of the VA 
system, if that works, but if they fall through the cracks, let 
them go find their own doctors and hospitals.
    But particularly in the area of mental health, when we have 
so many veterans, unfortunately, committing suicide, we have 
backlogs at the VA, getting mental health services, it seems 
like this telemedicine concept would really be helpful there, 
especially if they could see somebody face to face, talk to a 
mental health provider, and do that almost instantaneously 
where the government would back that up. A lot of our veterans 
live in rural areas, and they don't have access to these types 
of things now.
    So don't you think that would be beneficial, the concept? I 
am not going to have you support my policy, but the concept of 
that.
    Mr. CARLSON. I live in the City of Cambridge. I live a 
block-and-a-half from the hospital. If I need to make an 
appointment--if I have any issue that comes up, I need to make 
an appointment. So I call the medical center, I make an 
appointment. That way, now I can do it online. But I need to go 
physically to that location only a block-and-a-half away, when 
oftentimes through technology I could get some kind of 
response, whether it is through video conferencing or whatever 
the case might be.
    We have 900 personnel employed at our local medical center. 
But if you need service, you have to go there. The further you 
are out into the rural parts of the county, the further you 
have to travel, and the more work it takes to get there. So 
whether you are a veteran or anybody else that needs any 
services, you go to that location.
    I think that through telehealth, the opportunity is there 
to really turn that over. You talked about how it has flipped 
in education, and I think this is the same kind of thing. We 
need to flip that paradigm so that services are made available 
to people where they are at, versus having to come to this 
place, which honestly is not open 24 hours a day other than 
maybe the emergency room, and that is going to be more costly. 
So oftentimes I think there is opportunity to save a lot of 
dollars, too.
    Mr. HAGEDORN. In this case you might have access 24 hours a 
day. You could have people sitting on the other side of a 
computer or phone or whatever to do these things.
    I would just like to thank the witnesses for your 
testimony, everyone for being here, for holding the hearing. I 
see good friends like Senator Koran here, and I think we from 
Minnesota are prepared to work with our governor, our state 
legislature, in order to help this in any way possible.
    My parting statement is that rural America has been 
overlooked for far too long, and we are working real hard to 
turn that around, and I am pleased to work with my colleagues 
on a bipartisan basis to make that happen. Thank you very much.
    Chairman GOLDEN. I want to thank you all once again. I 
think this has been a pretty productive conversation overall. 
We take a lot of notes, and really I think a big part of the 
job is getting out into your communities and listening, 
bringing the feedback back home, back down to Washington I 
should say.
    In case you can't tell, I am a little bit obsessed with 
this idea of the FCC mapping of this issue and how it really 
doesn't get it. It drives me insane. Even when we talk about 25 
down, 3 up, you have this drilled into my head now, what I hear 
a lot of people talk about, and I am sure that this is the case 
in this community as well, is yeah, sure, we have that, we have 
25 down, 3 up, if you want to wait until 11:00 p.m. at night or 
something along those lines, right? But then once everyone in 
the community figures that out, all of a sudden that is a 
problem too.
    That is just not good for business right there. You don't 
want to have to be coming into the shop at 11:00 p.m. at night. 
You need it when you need it.
    A big part of you all to understand, I think these days 
members of Congress are always encouraged to try and do the 
thing that gets the headlines, and that is usually introducing 
legislation, passing bills, getting press. But a good boss of 
mine, Senator Susan Collins from Maine, who I worked for years 
ago, taught me that a big part of the job is oversight. It is 
not as attractive and exciting, but that is where the real work 
gets done. If you all have ever seen that picture of an 
iceberg, just the tip of it, and then underneath it is just 
this massive thing, I think that is really what the job is.
    So I know that we are all going to--I think actually you 
may have signed a letter as well, sir, and Angie Craig, the 
Small Business Committee to the FCC to keep pushing them to get 
more accurate mapping. It is probably unrealistic to expect 
that bureaucracy to be able to get into every community to do 
it themselves, so maybe there is some solution at the local 
level where we do the mapping and pass it on to them. But it 
has a big impact, I think, on our ability to get broadband out 
into rural communities.
    But just very quickly in closing I would say I think we 
have come upon a time where we see the current trend is people 
flowing into more urban areas, and every now and then I think, 
whether it is electricity or now broadband, there is a 
technology gap that develops that will push that kind of a 
trend. But if all things were equal, rural America offers a 
better standard of living in the opinion of a lot of folks, and 
when we equalize things then it will correct itself and all of 
a sudden we will see people flowing or wanting to flow back out 
into rural areas, and I suppose the question is do we want to? 
Just kidding. We always welcome new people.
    So thank you for welcoming me here to your community for 
this hearing. If you want to have a closing statement, we are 
doing it a little different. Normally we would just say, all 
right, we are done, and we will submit closing statements for 
the record. But I am in your community, and if you want to wrap 
it up, then I will leave it to you, sir.
    Mr. STAUBER. Thank you, Mr. Chair. Before you gavel us 
down, I would like to make a closing statement.
    To the witnesses, thank you for being here and sharing your 
expertise. It helps us make decisions. For me, making sure, as 
Congressman Hagedorn talked about, making sure that rural 
America matters. You talk about the rural schools, they matter. 
Your businesses matter.
    I have been pushing not only the Transportation and 
Infrastructure Committee but the Small Business Committee to 
make sure that living in rural America has a great upside. You 
talk about the standard of living, we need to make sure that 
those little footsteps that you heard a couple of minutes ago, 
those children with sandals, that if they want to stay right 
here in this community, they can stay here and live, work, 
play, recreate, raise a family in rural America, rural 
Minnesota.
    So this whole conversation we are having today is extremely 
important, that we can bring it back to the other committee 
members.
    I will say this, that the elephant in the room is, of 
course, the money, right? But I want to end with this: At some 
point in this nation's history, our government decided that 
everybody would receive United States mail. At some point, 
every mailbox mattered. Think about that. Think about that for 
a minute.
    We have to make the investment. We have to make the 
investment, and is it going to be to the price point that we 
can attain? The answer is yes. When we put our minds together 
in the Federal Government and local, make it local, we can do a 
lot of great things. As Senator Koran told me--we spoke about 
it before the meeting--we can work to make this investment. I 
want the states and the local communities to have the input. I 
don't want the input and the forcing from Washington. I want to 
make sure that we in the Small Business Committee and the 
Subcommittee work to invest, put forth that money, and the 
experts in the field can deploy it. The experts in the 
legislative process in St. Paul can make the difference.
    With that, thank you again to the witnesses. Thank you to 
the audience members. We so much appreciate you being here. 
Congressman Hagedorn, thanks for your time. Chairman Golden, I 
really appreciate you coming to the great state of Minnesota, 
and I yield back.
    Chairman GOLDEN. Thank you very much.
    And with that, I would ask unanimous consent that members 
have 5 legislative days to submit statements and supporting 
materials for the record.
    Without objection, so ordered.
    There being no further business to come before the 
Committee, we are adjourned.
    Thank you very much.
    VOICE. Can I just make a statement?
    Chairman GOLDEN. Sure, why not?
    VOICE. [Inaudible.]
    Chairman GOLDEN. Thank you. Well said.
    [Applause.]
    Chairman GOLDEN. Thank you, everyone. I appreciate your 
attendance.
    [Whereupon, at 11:31 a.m., the Subcommittee was adjourned.]
                            A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
